Audit of Labor Effort Distribution and
          Reporting System

        Vanderbilt University
        Nashville, Tennessee

       National Science Foundation
       Office of Inspector General


            September 24, 2008
              OIG 08-1-014




                                   MANAGEMENT CONSULTANTS &
                                 CERTIFIED PUBLIC ACCOUNTANTS
This page intentionally left blank
                                    EXECUTIVE SUMMARY

        This audit report provides the results of our review of the payroll distribution and effort
reporting system used by Vanderbilt University (Vanderbilt) to record and charge salaries and
wages to National Science Foundation (NSF) grants. In fiscal year 2006, Vanderbilt had total
Federal grant expenditures of $315 million,1 of which $13.8 million was directly funded by NSF.
Of this amount, $4.2 million or 30 percent was for labor costs directly charged to NSF grants.
This audit is one of a series of Office of Inspector General’s (OIG) reviews of the labor effort
distribution systems being conducted at NSF’s top-funded universities in order to assess the
adequacy of internal controls to ensure salaries and wages claimed on NSF grants are properly
managed, accounted for, and monitored.

        Our audit found that Vanderbilt generally has a well established and sound Federal grants
management system. Vanderbilt has updated its Federal grants management policies and
procedures in 2002 to provide a general framework for after-the–fact confirmation of labor
charges to Federal sponsored projects, uses a web-based effort reporting training module to
educate personnel on the labor certification process, and is developing a new automated payroll
distribution and effort reporting system to improve its labor certification process. Also, review
of 30 sampled employees disclosed that the University’s labor effort reports generally supported
the FY 2006 NSF salaries of $623,317 directly charged to NSF grants.

        However, Vanderbilt needs to improve its internal controls for managing and
administering its payroll distribution and effort reporting system to ensure after-the-fact labor
certifications are timely and reliable. Due to inadequate internal controls, five of the 30 sampled
employees interviewed reported 10 to 50 percent less actual effort worked on NSF grants than
certified on their labor effort reports. In addition, certifying officials did not timely approve 12
of the 68 effort reports reviewed, representing 16 percent of total salaries tested, within six
months after the end of the reporting period, ranging from 21 to 174 days late. Also, 41 of the
effort reports reviewed, representing 60 percent of NSF salary charges, lacked documented
certification dates.

        Without timely or effective controls, Vanderbilt has less assurance that the labor
certifications are reliable and reasonably support labor costs charged to NSF grants.
Specifically, the University overcharged $17,955 (3 percent) for employee activities not directly
benefiting NSF projects and did not have “suitable means of verification” supporting another
$4,584 (1 percent) in FY 2006 salary charges reviewed. Furthermore, late certifications diminish
the reliability of Vanderbilt’s after-the-fact confirmation of NSF labor costs because certifying
officials are relying on their memory, sometimes going back as long as one year, to validate the
reported labor effort. Also, without documented certification dates, Vanderbilt cannot determine
whether the labor effort confirmations were timely or not. The systemic nature of these control
weaknesses raises concerns about the reasonableness and reliability of the remaining $3.6
million in FY 2006 labor charges to NSF grants and the salary portion of Vanderbilt’s other $300
million of Federal grant expenditures.

1
       The $315 million of Federal grant expenditures excludes flow-through funds of $39 million and
Department of Education student-aid funds of $61 million.


                                                       i
         Furthermore, Vanderbilt needs to provide for accurate reporting of voluntary committed
labor effort devoted by faculty members on Federal sponsored projects. Specifically, the
University did not appropriately track and report uncompensated faculty labor effort when
funded principal investigator (PI) effort on NSF grants was replaced with cost shared effort by
the faculty members. Our review of the 15 sampled faculty members disclosed that two
individuals charged $9,161 less salary to two NSF grants for funded labor effort than included in
the award budget proposals. The FY 2006 salary costs associated with such unreported faculty
effort is approximately 3 percent of the total NSF labor charges for the 15 faculty members
reviewed. Further, for one of the two PIs, Vanderbilt did not estimate an amount of labor effort
to include in the organized research base for computing its negotiated Federal indirect cost rate,
as required by Federal regulations.

        These weaknesses occurred because Vanderbilt has not established adequate internal
controls to provide for proper administration and oversight of its payroll distribution and labor
effort reporting system. Specifically, the University has not (i) established comprehensive effort
reporting policies and procedures, (ii) provided adequate employee training to ensure clear
campus understanding of the effort reporting process; and (iii) performed sufficient monitoring
to ensure campus implementation and compliance with established University and Federal effort
reporting policies and procedures. To address the weaknesses, recommendations made were
primarily directed at the need to enhance Vanderbilt’s written policies to improve the timeliness
and reliability of the labor confirmation process.

        A draft audit report requesting comments on the findings and recommendations was
issued to Vanderbilt. In general, the University agreed to implement the audit recommendations
and believed its new web-based Electronic Personnel Action Change (ePAC) system for labor
effort reporting will address many of the control weaknesses identified in the audit findings.
Vanderbilt’s comments and proposed corrective actions were generally responsive to the audit
recommendations. Therefore, NSF should work with the cognizant Federal audit agency to
ensure the University develops an acceptable corrective action plan to resolve each
recommendation. The corrective action plan should establish clear milestone dates for all
proposed corrective actions; including updates to Vanderbilt’s Effort Reporting Policy to reflect
changes in its effort reporting process brought about by the recent implementation of the new
ePAC system. Furthermore, it is essential for the University to establish written instructions and
procedures to clearly define the role and responsibilities for all campus personnel involved in the
new web-based effort reporting system. Written and current policies and procedures are the
cornerstone to a sound Vanderbilt internal control structure.




                                                 ii
                                                   Table of Contents


EXECUTIVE SUMMARY                         .........................................................................................................i

INTRODUCTION

   Background ...............................................................................................................................1

   Objectives, Scope, and Methodology .......................................................................................2

FINDINGS AND RECOMMENDATIONS

   Finding 1: Internal Control Improvements Needed in Payroll Distribution and Effort
   Reporting System......................................................................................................................4

   Finding 2: Improvements Needed to Properly Report Uncompensated Faculty Labor
   Effort on Sponsored Projects ....................................................................................................21

APPENDICES

   Appendix A – Schedule of FY 2006 Questioned Salaries and Wages ....................................25

   Appendix B – Schedule of Faculty with Uncompensated Effort on NSF Grants Not
   Properly Reported in FY 2006 .................................................................................................26

   Appendix C – Vanderbilt’s Comments to Draft Audit Report .................................................27


ACRONYMS

NSF                         National Science Foundation
OIG                         Office of Inspector General
OMB                         U. S. Office of Management and Budget
PAF                         Personnel Action Form
PI                          Principal Investigator
OCGA                        Office of Contracts and Grants Accounting
DSR                         Division of Sponsored Research
                                 INTRODUCTION

Background
        Approximately one-third of the National Science Foundation (NSF) award funds are
provided for salaries and wages, amounting to about $1.3 billion annually at universities. Also,
in recent years, there have been several civil settlements involving overcharges of labor costs to
Federal grants, amounting to millions of dollars at several major universities, including some
funded by NSF. Because of these legal actions and the material amounts of labor costs paid from
NSF awards, the Office of Inspector General (OIG) is undertaking a series of reviews of the
labor effort distribution systems at NSF’s top-funded universities in order to assess the adequacy
of internal controls to ensure salaries and wages costs claimed on NSF grants are properly
managed, accounted for, and monitored. This audit, involving Vanderbilt University
(Vanderbilt), is one of several planned reviews of such labor effort distribution systems.

         Vanderbilt University, founded in 1873, is a private nonsectarian institution devoted to
research and teaching in liberal arts and sciences, engineering, music, education, and human
development. The University is located in Nashville, Tennessee and is comprised of 10 schools,
a public policy institute, and a medical center. It has approximately 2,689 faculty members,
17,567 administrative and support staff, 6,378 undergraduates, and 5,229 graduate and
professional students. Generally, Vanderbilt faculty members in the non-medical area are
awarded nine-month academic year appointments, thus dedicate a majority of their summer
effort to Federal sponsored research projects.

        In fiscal year 2006, Vanderbilt revenues totaled $2.48 billion, of which $278 million or
11 percent was received from Federal Government grants and contracts. A majority of the
University’s revenues, 64 percent, was derived from health care services provided by its medical
center. Total Vanderbilt FY 2006 direct Federal grant expenditures totaled $315 million, of
which $13.8 million (4 percent) was for NSF awards. Of the $13.8 million in NSF expenditures,
$4.2 million or 30 percent was for salaries and wages.

        Vanderbilt’s management and oversight of Federal grant programs for its non-medical
area is shared between the Office of Contracts and Grants Accounting (OCGA) and the Division
of Sponsored Research (DSR). OCGA is responsible for financial administration and monitoring
of active Federal awards and ensuring Vanderbilt’s compliance with Federal grant regulations
and sponsoring agency requirements. As such, OCGA develops Vanderbilt’s policies and
procedures for Federal grants management. DSR is primarily responsible for pre-award grant
functions.

        Within each Academic Department, Business Administrators are tasked with the
management and oversight of sponsored projects by providing assistance to faculty members in
administering their Federal grants. Typically, such Business Administrators are responsible for
ensuring that awards and their budgets are created accurately in the University’s financial
systems, award expenditures are monitored on a monthly basis, and labor effort certification
reports are reviewed and approved by the employee or project PI. Specifically, PIs, in
conjunction with the Business Administrators, have primary responsibility for all aspects of the

                                                1
sponsored projects including approval of all charges and ensuring that the research is conducted
in accordance with the award terms and conditions.

Objectives, Scope, and Methodology
        Review Objectives. Our review objectives were: (a) to evaluate whether Vanderbilt’s
internal controls are adequate to properly manage, account for, and monitor salary and wage
charges to NSF grants in accordance with OMB and NSF grant requirements and (b) to
determine whether the salaries and wages are allowable, allocable, and reasonable in accordance
with Federal cost principles and NSF grant terms and conditions.

        Scope and Methodology. The audit focused on Vanderbilt’s payroll distribution and
effort reporting system and, accordingly, we reviewed internal controls for ensuring that labor
costs charged to NSF were (i) actually incurred; (ii) benefited NSF awards; (iii) were accurately
and timely recorded; and (iv) were for allowable and allocable-type activities, as required by
Federal and NSF grant requirements.

         To address each of these control objectives, NSF-OIG engaged a statistician to provide
assistance in selecting a statistical sample of employee salary records for testing. The use of
statistical tools and methodology is to enable the NSF-OIG to project the audit results to the
entire population of universities included in its planned reviews of payroll distribution and effort
reporting systems nationwide. However, due to the small statistical sample size of 30 employees
tested, we are not able to make any projections to the total Vanderbilt population of labor costs
charged to NSF grants. Specifically, the FY 2006 salaries and wages costs for the 30 sample
employees tested amounted to $623,317 and were supported by 68 effort reports. The statistical
sample was derived from a total population of 352 employees, who charged $4,182,488 of
salaries to NSF grants during FY 2006. This population excluded (a) any employee with total
salary costs of $100 or less, and (b) all salary charges for undergraduate students. These
amounts were excluded because of their small dollar value and the difficulty in locating
undergraduate students for personal interviews.

        We compared Vanderbilt’s policy and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards, and interviewed Vanderbilt personnel to gain an
understanding of the controls in operation to ensure that salaries and wages charged to NSF
awards were reasonable and allowable. For each statistically selected salary record, we obtained
the following documentation to determine whether the labor costs that Vanderbilt charged NSF
awards met the control objectives:

       •   Labor effort reports documenting 100 percent of each employee’s compensation
           allocated to sponsored and non-sponsored projects for each reporting period.

       •   Appointment letters or other documents supporting the approved annual salary for
           employees.

       •   Payroll distribution information detailing the actual salaries and wages charged to
           sponsored projects and other activities for each employee during the fiscal year.


                                                 2
       •   Award documents to determine whether the grants had any terms and conditions that
           would affect allowable labor charges to the award.

        To ensure that salaries and wages charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on Vanderbilt’s labor effort reports by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges documented
were actually incurred on projects and activities, (b) the approximate percentage of effort
actually worked on each sponsored project and/or activity was reasonably consistent with labor
charges to NSF, and (c) the type of work performed on NSF projects was generally consistent
with the scope of the awards. We also interviewed selected Business Administrators in
Academic Departments to determine procedures for processing and monitoring employee salary
charges to Federal grants. Additionally, we interviewed selected PIs to determine the number of
projects and personnel they were responsible for, and their processes for verifying work
performance prior to approving and signing labor effort reports.

        To determine whether labor costs were accurately recorded and charged to NSF, we
obtained appointment letters or other documentation supporting the authorized Vanderbilt salary
rate for each employee in our selected sample. We recalculated labor costs charged to NSF
projects by using the salaries shown on supporting documentation and apportioning it by the
distribution percentage and period of time represented on the labor effort reports. We also
reviewed labor transactions to determine whether Vanderbilt followed Federal, NSF, and
University requirements for charging such costs to Federal sponsored projects.

         We determined whether Vanderbilt officials approved and signed effort reports in a
timely manner, by comparing the date the effort reporting period ended to the date the reports
were approved and signed. Because Vanderbilt did not have an established time frame for effort
certification, we used six months from the end of the reporting period as criteria during our
review. Based on similar audits performed at other universities nationwide, the six month
criteria is reasonable because all the universities had timeliness standards of less than six months
from the end of the effort reporting period. Also, as required by Vanderbilt’s policy, we
determined whether the effort reports were properly reviewed and signed by the employee, the
responsible project PI, or a cognizant individual with “suitable means of verification.”

        Also, we met with Vanderbilt’s independent public auditors who performed the OMB
Circular A-133 audit.2 Selected audit working papers were reviewed to ascertain the actual
audit scope and procedures used in order to (i) preclude any duplicative audit work and (ii)
determine the specific audit procedures performed on the labor effort reporting system.

        Onsite review work at Vanderbilt was performed for a 2-week period in May 2007 and a
3-week period in July 2007. The remainder of our review work was completed through phone
interviews, emails, and documentation requests through June 2008. We were engaged to
perform the review by the NSF-OIG and the audit was conducted in accordance with the
Comptroller General’s Government Auditing Standards and accordingly included such tests of
accounting records and other auditing procedures, as we considered necessary, to fully address
the audit objectives.


2
       OMB Circular A-133 is entitled Audits of States, Local Governments, and Non-Profit Organizations.
                                                     3
                   FINDINGS AND RECOMMENDATIONS

Finding 1: Internal Control Improvements Needed in Payroll Distribution and Effort
Reporting System

        Federal grant requirements provide that salaries and wages charged to sponsored projects
be supported by labor effort reports signed and approved by the employees or officials who are
in a position to know whether the work was performed. Such reports are required to represent
100 percent of an individual’s activity and provide an after-the-fact confirmation or
determination that the effort report represents a reasonable estimate of the actual effort expended
on sponsored projects. Although Federal requirements do not specify when a labor effort report
should be completed, university officials should provide the after-the-fact confirmation as close
to the end of the reporting period as possible to ensure its reliability.

        Our review of 30 sampled employees disclosed that Vanderbilt’s labor effort reports
generally supported the FY 2006 NSF salaries of $623,317 directly charged to NSF grants.
However, Vanderbilt needs to improve its internal controls for managing and administering its
payroll distribution and effort certification system to ensure after-the-fact labor certifications are
timely, and reasonably reflect the actual work performed on sponsored projects. Review of 68
labor effort reports for the 30 sampled employees found the following control weaknesses:

       •   Twelve effort reports, representing 16 percent of total salaries tested, were not timely
           certified within six months after the end of the reporting period, ranging from 21 to
           174 days late. In addition, 41 of the reports, representing 60 percent of NSF salary
           charges reviewed, lacked a certification date.

       •   Five employees reported 10 to 50 percent less actual effort worked on NSF grants
           during interviews than the labor effort certified on effort reports.

       •   One labor effort report was inappropriately certified by an individual without
           “suitable means of verification” to validate the reasonableness of the actual work
           performed on the NSF grant.

        Without timely or effective controls, Vanderbilt has less assurance that the labor
certifications are reliable and reasonably support labor costs charged to NSF grants.
Specifically, the University overcharged $17,955 (3 percent) for employee activities not directly
benefiting NSF projects and did not have “suitable means of verification” supporting another
$4,584 (1 percent) in FY 2006 salary charges reviewed. Furthermore, late certifications diminish
the reliability of Vanderbilt’s after-the-fact confirmation of NSF labor costs because certifying
officials are depending on their memory to validate the reported labor effort. Similarly, without
documented certification dates, Vanderbilt cannot determine when the effort reports were
reviewed and therefore, whether they were timely. The systemic nature of these control
weaknesses raises concerns about the reasonableness and reliability of the remaining $3.6
million in FY 2006 labor charges to NSF grants and the salary portion of Vanderbilt’s other $300
million of Federal award expenditures.


                                                  4
        These weaknesses occurred because Vanderbilt did not establish adequate internal
controls to provide for proper administration and oversight of its payroll distribution and labor
effort reporting system. Specifically, the University has not (i) established comprehensive
written effort reporting policies and procedures; (ii) provided adequate employee training to
ensure clear campus understanding of the effort reporting process; and (iii) performed sufficient
monitoring to ensure campus compliance with established University and Federal effort
reporting policies and procedures.

Labor Effort Reports Must Be Timely Certified as Accurate and Reflect Work Benefiting NSF
Awards

        OMB Circular A-21, Cost Principles for Educational Institutions, requires certification of
labor effort/activity contributed by employees on Federal awards. Specifically, paragraph
J10.b.(2) states a payroll distribution system is required that will “…reasonably reflect the
activity for which the employee is compensated by the institution; and encompass both
sponsored and all other activities on an integrated basis.” Such a system must provide for after-
the-fact confirmation of employee activity by a responsible person with “suitable means of
verification that the work was performed.” The Circular also requires that the University provide
for periodic independent internal evaluations to ensure the system’s effectiveness and
compliance with the Federal standards.

        Circular A-21 recognizes that labor charges may be made initially to sponsored
agreements on the basis of estimates made before services are performed. But when “significant
changes in the work activity” occur, such changes in employee salary distributions must be
identified and entered into the system. Further, Circular A-21 recognizes that a precise
allocation of labor effort is not always feasible and states that reliance can be placed on
“estimates in which a degree of tolerance is appropriate.” Furthermore, the Circular recognizes
that each institution “should employ sound management practices” in applying the Federal cost
principles for charging costs on sponsored projects.”3 As such, Vanderbilt should have written
procedures defining (1) what constitutes “significant changes in work activity” that are required
to be entered into the payroll distribution system and (2) what level of “precision” is acceptable
between actual effort and reported effort that is considered to be tolerable and does not have to
be adjusted in the payroll distribution system.

        Consistent with the Circular A-21 requirement for “sound business management
practices,” OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organization,4 requires entities receiving Federal awards to establish and maintain internal
controls that are designed to reasonably ensure compliance with Federal laws, regulations, and
program requirements. Further, OMB Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, defines internal controls as a “process effected by an entity’s

3
         Paragraphs A.2.d. and A.2.e of OMB Circular A-21, Cost Principles for Educational Institutions.
4
         Section .21 of OMB Circular A-110, requires that a grantee’s financial management system provide for
“Effective control over and accountability for all funds, property, and assets. . . Written procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the provisions of the applicable cost
principles and terms and conditions of the award.”

                                                          5
management and personnel, designed to provide reasonable assurance regarding the achievement
of objectives in the following categories: (1) Effectiveness and efficiency of operations; (2)
Reliability of financial reporting; and (3) Compliance with applicable laws and regulations.”
Internal control is considered a major part of managing an organization and comprises the plans,
methods, and procedures used to meet missions, goals, and objectives. Management sets the
objectives, puts the control mechanisms in place, and monitors, and evaluates whether the
control is operating as intended. People are what make internal control work, thus sufficiently
trained personnel in an organization and clear job descriptions and responsibilities are critical
elements of a successful internal control program.

        Pursuant to OMB requirements, Vanderbilt has established three different effort reporting
processes to provide for after-the-fact certification of the reasonableness of actual employee
effort devoted to Federal sponsored projects: the Personnel Action Form (PAF) for exempt
employees; a certification report for faculty summer salaries; and bi-weekly timesheet
certification for non-exempt employees. The PAF is a multi-purpose document5 used to both
allocate employee salaries to sponsored projects on a prospective basis and to provide for after-
the-fact certification of the reasonableness of such salaries charges. Specifically, Vanderbilt
procedures require the employee or the project PI to review and approve the certification section
of the PAF at least once annually or whenever there is a change in an employee’s salary
distribution. Each of the University’s Academic Departments is responsible for distributing the
PAFs to the employee or project PI, obtaining the after-the-fact confirmation of salary charges to
sponsored projects, and maintaining copies of the certified reports. In addition, Vanderbilt
policy requires a separate labor certification report for faculty summer salary charges to Federal
sponsored projects. The Office of Contracts and Grants Accounting (OCGA) is responsible for
compiling, distributing, obtaining confirmation, and maintaining copies of the separate effort
certification reports for faculty summer salaries.

Many Labor Effort Reports Not Timely Certified or Dated

         Although Federal regulations do not specify when labor effort reports should be reviewed
and certified, sound internal control dictates that University officials should provide the after-
the-fact confirmation as close to the end of the reporting period as possible to ensure its
reliability. However, Vanderbilt did not establish any specific time frames for review and
approval of either of the two effort certification reports. Therefore, for audit purposes, we used
six months from the end of the reporting period to evaluate the timeliness of the University’s
labor effort certification process. The six-month time frame is reasonable because we found that
the established turnaround time at the other universities reviewed to date have all been less than
six months.

        Therefore, using the six-month criteria, only 15 of the 68 FY 2006 labor effort reports for
the 30 sampled employees were certified on time. The certifying officials did not timely approve
12 reports, representing $98,415 (16 percent) of the total NSF labor charges reviewed. The
number of days late beyond six months from the end of the reporting period ranged from 21 to
174 days. Specifically, all 12 late certifications were for the confirmation reports for faculty
summer salaries charged to NSF grants. Furthermore, for the remaining 41 PAFs reviewed,

5
          The PAF is also used to document other employee personnel and payroll information such as new hires, terminations,
charges in personal data, salary increases, etc.
                                                              6
representing $374,227 or 60 percent of the total FY 2006 NSF salary charges, we were unable to
determine whether certifying officials approved the PAFs timely because the signature dates
were not documented.6 The following table summarizes the number of days late beyond six
months from the end of the reporting period that Vanderbilt officials took to review and approve
the labor effort certifications as well as the number of reports that were not dated to permit an
evaluation of timeliness.


                       Effort Reports Certified on Time, Late, or Not Dated
                                                           % of          Total         % of
                                         # of Effort       Effort       Affected      Affected
                 Number of Days           Reports         Reports       Salaries      Salaries

                     Reports                   15            22%        $150,675        24%
                 Certified Timely

                        1-50                   11            16%        $83,415         13%
                       51-100                  0                           0
                       101-150                 0                           0
                       150-200                  1            2%         $15,000          3%

                     Reports                   12            18%        $98,415         16%
                   Certified Late

                    Reports Not                41            60%        $374,227        60%
                      Dated

                  SUBTOTAL –                   53            78%        $472,642        76%
                  Reports Late or
                    Not Dated

                      TOTAL                    68            100%       $623,317       100%

        Timely approval of labor effort reports is essential to ensure labor charges to NSF grants
are reliable because certifying officials are generally relying on their memory when approving
reported work activity for themselves and the individuals that work for them. Vanderbilt
employees or project PIs must at a minimum remember as far back as one year in many instances
to confirm the reasonableness of reported employee activity since PAF certification are only
required annually. Additionally, many PIs have multiple awards and many employees for whom
they are responsible, which increases the risk that the PI’s memory of the amount and type of

6
          Cognizant Vanderbilt officials believed that the dates other Department officials signed the multi-purpose
PAF should be used to document the labor effort certification date. However, these other Department officials were
reviewing and approving the PAF data for other purposes, thus it would not be valid to use such dates for labor
effort certification purposes.
                                                         7
activities performed will be less reliable as time increases. For example, one PI had a dual
appointment in the Departments of Radiology and Biomedical Engineering and was responsible
for overseeing the research activities of two medical students and three graduate students on two
NSF research projects as well as other Federal funded projects. Thus, limiting the review and
certification of PAFs to the shortest amount of time possible helps ensure a more reliable
certification of labor costs associated with such activities on Federal awards.

Salary Charges Did Not Directly Benefit NSF Grants

         Interviews of 30 sampled employees found that the actual FY 2006 labor effort for five
employees on NSF sponsored projects was less than what was reported and certified on their
PAFs, with deviations ranging from 10 to 50 percent. The differences were for employee
activities that did not directly benefit the NSF projects and totaled $17,955. Specifically, while
charging their salaries to NSF projects, (i) two employee were inappropriately working on other
sponsored research projects and (ii) three employees were devoting time and effort to grant
proposal writing and other administrative activities, which cannot be directly charged to Federal
grants. The following table summarizes the impacted salary costs for the five subject Vanderbilt
employees.

                         Employee Salary Costs Not Benefiting NSF Grants

                                                        Employee Effort Spent
                                                          on Administrative
                                                                                   Total Salary Costs
     Sample   Employee     Employee Effort Spent on     Activities and/or Grant    Not Benefiting NSF
       #        Type       Other Research Activities      Proposal Writing               Grants

                                             Dollar                      Dollar      # of        Dollar
                             Percent        Impact         Percent      Impact     employees    Impact


       2         PI                                         10%         $1,812                  $1,812

       10         PI          34%           $5,666                                              $5,666
                Grad.
       28      Student        50%           $5,207                                              $5,207
       29        PI                                         20%         $2,787                  $2,787
       30        PI                                         10%         $2,483                  $2,483


     Total                2 employees       $10,873    3 employees      $7,082    5 employees   $17,955




                                                       8
        The following examples provide further details to illustrate that Vanderbilt’s labor effort
certifications did not always reasonably support the actual FY 2006 employee effort devoted to
NSF projects.

   •   During three summer months in 2005, a PI spent approximately 66 percent of her
       research effort working on three NSF projects and 22 percent on a Vanderbilt project.
       However, the PI improperly charged $16,667 or two-thirds (67 percent) of her total
       summer salary to two NSF grants even though she had only devoted 44 percent actual
       effort; an overcharge of $5,666.

   •   For the nine-month academic year from September 2005 to May 2006, a graduate student
       divided his research effort equally between a NSF project and a related privately-funded
       project. According to the student, the NSF-funded portion of the project was for the
       theoretical side of the research, while the privately-funded portion was for the practical
       application aspect of the research. However, from September 2005 to January 2006, the
       graduate student improperly charged 100 percent of his salary, totaling $10,415, to the
       NSF grant; resulting in an overcharge of 50 percent or $5,207.

   •   During the summer months of 2005 and 2006, a PI worked on a NSF grant and charged
       salary totaling $13,936 during FY 2006. During an interview, the PI stated he spent
       approximately 80 percent of his time on NSF research activities and 20 percent writing
       grant proposals during the summer months. However, he improperly charged 100
       percent of his summer salary to the NSF project; resulting in an overcharge of 20 percent
       or $2,787.

Certifying Official Lacked Suitable Means to Verify Effort Report

        A Vanderbilt certifying official inappropriately approved the labor effort report for one
sampled employee without “suitable means of verification” to validate the reasonableness of the
NSF salary charges. Specifically, a Department Chair certified the labor effort report for a PI,
representing $4,585 of the PI’s NSF salary charges, without having any first hand knowledge of
the work performed on the NSF project or obtaining any documentary evidence to validate the
NSF charges were for actual work performed on the sponsored projects. Since the Department
Chair was not directly supervising or involved in the subject NSF project, he would not have had
a valid basis to certify the PI’s labor effort to the research project.

Potential Excess Labor Charges

        Without timely or appropriate controls for certifying labor effort reports, Vanderbilt can
provide less assurance to NSF that the University’s after-the-fact confirmation of labor charges is
reliable and reasonably supports actual effort on NSF sponsored projects. As discussed in the
above report sections, control weaknesses resulted in the University (a) overcharging NSF
$17,955 (3 percent) of FY 2006 salary charges for activities of five employees not directly
benefiting the sponsored projects (see Appendix A) and (b) not having adequate documentation
to support another $4,585 (1 percent) in salary charges. Furthermore, late certifications for 16
percent of NSF salary charges reviewed increases the risk that such certification are not reliable
because employees are depending on their memory to validate the reported labor effort. For
                                                 9
example, one PI interviewed could not confirm the reasonableness of $13,209 charged to two
NSF grants because she could not remember how much effort she had devoted to the projects
during FY 2006. Also, without a certification date for an additional 60 percent or $374,227 of
NSF salary costs reviewed, Vanderbilt could not document when officials certified the associated
effort reports; thereby raising questions about the reliability of its after-the-fact confirmation
process for a significant portion of the sampled NSF labor charges. The systemic nature of these
control weaknesses raises concerns about the reasonableness and reliability of the remaining $3.6
million of FY 2006 labor charges to NSF grants as well as the salary portion of Vanderbilt’s
other $300 million of direct Federal grant expenditures.

Several Factors Contributed to Effort Reporting Weaknesses

        These weaknesses occurred because Vanderbilt did not establish adequate internal
controls to provide for proper management and oversight of its payroll distribution and labor
effort reporting system to mitigate the risk of the University’s decentralized organizational
structure for Federal grants management. Because each of Vanderbilt’s Academic Departments
is assigned primary responsibility for management of its own effort reporting process, it is
important that the University (i) establish detailed written labor effort reporting policies,
procedures, and implementation guidance, (ii) provide adequate training to all cognizant
personnel to ensure clear understanding of its labor effort reporting process, and (iii) enhance
monitoring to ensure proper implementation and campus compliance with University and
Federal requirements.

Comprehensive Effort Reporting Policy and Procedures Needed to Improve Timeliness and
Reliability of Labor Certification Process

        While Vanderbilt’s Effort Reporting Policy, issued in January 2002, provided a general
framework for the after-the-fact confirmation of labor charges to Federal sponsored projects, the
University’s policy lacked detailed procedures for ensuring timely and reliable certification of
labor charges to Federal sponsored projects. Specifically, the University’s policy required
faculty and other employees to utilize the certification section of the multi-purpose PAF
document to provide after-the-fact confirmation of salary charges to Federal projects at least
once annually. However, neither the policy nor the PAF itself required the certifying official to
date the required certification statement. In addition, while the policy required separate
certifications for faculty summer salaries, it did not establish any specific time frames for
compilation, distribution, and approval of either the PAF certification reports or the separate
summer salary certification reports. Consequently, Vanderbilt did not have any quantifiable
standards to ensure timely review and approval of the reasonableness of salary charges to Federal
projects to help ensure the reliability of the effort certification process. OCGA officials
indicated that draft policies and procedures were being developed to address timeliness issues
with the University’s labor effort certification process.

        Furthermore, Vanderbilt’s policy did not establish any standard effort reporting periods
and lacked detailed guidance explaining the use of the multi-purpose PAF for labor certification
purposes. Specifically, PAF effort certifications were performed annually for all employees at
the time the University awarded its salary increases each year. In addition, the employee or
project PI was also required to certify reported labor effort whenever a new PAF was submitted
to change an employee’s status and/or salary distribution. As such, PAF effort certifications
                                               10
were performed at different times throughout the year and covered different reporting periods for
different employees. As a result, certifying officials did not always clearly understand the PAF
effort certification process and/or their certification responsibilities because they were confused
with receiving multiple labor effort reports at various times during the year.

        For example, a graduate student was working on a NSF and industry-funded research
project during the 2005-06 academic year upon returning from a summer internship in August
2005. The following multi-purpose PAFs were processed to document the student’s personnel
actions, salary distributions, and labor effort certifications.

       •   Upon returning from his summer internship, a PAF was processed to re-hire the
           student on August 29, 2005. The effort certification section of the PAF was signed
           by the PI confirming the student’s 100 percent actual effort to the NSF grant.
           However, the purpose of this certification was unclear because the student did not
           work on the NSF grant during the summer months since his departure for internship
           on May 17, 2005, as documented on a prior termination PAF.

       •   On February 1, 2006, a PAF was processed to change the graduate student’s salary
           allocation from 100 percent on the NSF grant to 50 percent on the NSF project and 50
           percent on an industry-funded project. The PAF effort certification section was
           appropriately signed confirming the individual’s 100 percent actual effort on the NSF
           grant for the 5-month period from the prior PAF, effective August 29, 2005.

       •   On May 1, 2006, a PAF was processed to award the student his annual salary
           increase. The PAF effort certification section was signed confirming the 50% split
           allocation to the NSF and industry projects for the 2-month period from the prior
           PAF, effective February 1, 2006. However, the primary purpose of the PAF was to
           process the student’s annual salary increase in the University’s payroll system, not to
           confirm the labor charges to the sponsored projects; yet Vanderbilt procedures
           required the labor certification to be completed.

        During our audit, several certifying officials interviewed stated that they confirmed the
reasonableness of the PAF reported labor effort under the assumption that only annual
certifications were required and did not give any consideration to any changes in effort
performed. As illustrated in the above example, the PI’s certification of labor effort on the PAF
to rehire the graduate student after his summer internship indicates that the PI did not have a
clear understanding of what exactly he was certifying to when he signed the various PAFs. This
occurred because Vanderbilt lacked detailed written guidance clearly explaining the process for
using the multi-purpose PAF for both employee personnel actions, such as changes in home
department codes and increases in salary rates, as well as to provide for payroll distribution and
labor effort certifications on Federal sponsored projects.

        In addition, the University did not provide formal training to certifying officials and other
cognizant campus officials to promote a comprehensive understanding of the University’s labor
effort reporting processes and requirements to fully comply with Federal regulations. Vanderbilt
officials believed that its web-based effort reporting training module was adequate to educate
campus personnel on the labor certification process. However, given the lack of standard PAF
labor effort reporting periods, it is particularly important that Vanderbilt provide formal
                                                 11
employee training explaining the different aspects of its effort reporting processes to help ensure
the reliability of its certifications of salary charges to Federal sponsored projects.

        Currently, Vanderbilt is in the process of developing a new automated payroll
distribution and effort reporting system to improve its labor certification process. The new
system will allow certifying officials to review and certify the labor effort reports electronically.
Therefore, Vanderbilt officials believe the time period for review and approval will be shortened
since the effort reports will no longer be required to be physically distributed to certifying
officials. Also, it believes the new automated system will be more transparent and will assist
both Department and central OCGA staff in monitoring the timely certification of effort reports
by readily identifying any delinquent reports for prompt resolution.

        While we agree that the automated system should allow for easier monitoring of timely
labor effort report certifications, it is essential that Vanderbilt establish formal written policies
and operating procedures for proper administration of the new system and provide formal
training to all campus personnel in such procedures. Such written guidance should establish an
explicit monitoring process and assign clear responsibilities to both the Academic Departments
and a central University oversight office, such as OCGA, for campus compliance with timely
certification of labor effort reports. The monitoring process should include periodic reminder
notices for late effort reports using an increasingly graduated scale to higher levels of Vanderbilt
management officials, such as the Department Chair, the Dean, and the Provost, as the period of
delinquency increases.

         Furthermore, we do not see the issue being resolved until Vanderbilt holds senior
management officials, such as Department Chairs, accountable for timely labor effort report
certification. Such senior officials have more leverage than Department grant administrative
staff in ensuring employees or project PIs review and certify effort reports timely. Because such
senior officials would have the responsibility for securing and retaining Department staff and
faculty members and recommending salary increases, tenure, and promotion. Hence, they would
have more influence in getting certifying officials to respond positively to timely review and
certification of labor effort reports.


Comprehensive Written Standards and Better Understanding of Certification Responsibilities
Will Preclude Salary Overcharges to Federal Awards

         Vanderbilt certifying officials approved labor effort reports reflecting more effort than
actually worked on NSF awards because of the lack of detailed University written guidance and
inadequate employee training provided for its labor effort certification process. Specifically,
Vanderbilt’s effort reporting policy did not define the types of employee activities included in
institutional base salary, such as grant proposal writing or university committee meetings, which
should not be charged to Federal projects. It also did not establish quantifiable standards for
properly certifying the reasonableness of employee work activity on Federal sponsored projects.
The lack of such written guidance and formal training resulted in University certifying officials
not clearly understanding and properly executing their effort certification responsibilities. In
particular, the certifying officials did not appropriately consider all of an employee’s work
activities and whether such activities were allowed to be directly charged to Federal grants. In
addition, officials did not have any guidance defining “significant change” in estimated labor
                                                 12
effort required to be entered into the payroll distribution system and/or acceptable “precision” or
“tolerance” limits for after-the-fact certification of such estimated labor effort.

          Explicit written guidance and formal training are essential to clearly define the various
classes of employees charging salaries to sponsored projects; their different job activities related
to instruction, research, and general administration; and which of those activities should be
charged to University funds versus Federal grant funds. Without such guidance and knowledge,
certifying officials did not take the necessary steps to carefully consider all employee work
activities, particularly proposal writing time and administrative type tasks, when approving the
labor effort reports for themselves or employees working on sponsored research projects for
which they were responsible. Pursuant to OMB grant regulations, activities that do not directly
benefit a sponsored project are not allowable as direct grant charges.

        Furthermore, Vanderbilt has not established quantifiable standards for certifying the
reasonableness of employee work activity on Federal sponsored projects. While the University’s
PAF system provides for initiating prospective changes in labor estimates to ensure “reasonable
distributions to sponsored projects and other departmental centers,” its Effort Reporting Policy
does not quantitatively define what constitutes “significant changes in work activity” that must
be identified and entered into the payroll distribution system, as required by OMB Circular A-21.
Similarly, Vanderbilt’s policy has not addressed or defined what level of “precision” or
“tolerance” is expected between actual labor effort and the estimated effort that officials review
and approve when certifying labor effort reports. Without a specific range or variance within
which the University expects the documented labor effort to fall, Vanderbilt certifying officials
lack a basis to determine how much an employee’s actual effort can differ from their estimated
effort before a cost transfer is required to be processed in the labor effort reporting system. At
some universities, the acceptable variance has been established at five percent.7

        Similarly, without written Vanderbilt guidance and formal employee effort reporting
training, a Department Chair inappropriately certified a labor effort report for a PI because he
was not aware that he was required to have suitable means of verifying that the employee
actually performed the reported labor effort. Cognizant Department grants management staff
were not aware that without direct oversight and management of the subject NSF project, the
Department Chair did not have first hand knowledge of the PI’s actual research activities in order
to properly validate the reported labor effort. Furthermore, Vanderbilt policy did not define the
specific steps an official should take to obtain documentation to demonstrate that “suitable
means of verification” was used to certify the reported labor effort.

Formal Policy and Procedures Needed for Internal Evaluation of Effort Reporting System

        While Vanderbilt’s Internal Audit Department performed the Federally-mandated
independent evaluation of its payroll distribution and effort reporting system in 2005, the audit
report recommendations did not properly require the University to establish formal written

7
         A March 2007 report entitled “Policies and Practices: Compensation, Effort Commitments, and
Certification,” issued by the Council on Governmental Relations, stated that the 5-percent standard used by some
universities was based on a 1979 interpretation by the prior Department of Health, Education, and Welfare stating
“As a general rule of thumb, a change applicable to a given project or activity of 5% or more of an employee’s total
effort would warrant an adjustment by the employee or the official.”

                                                         13
standards for the labor effort certification weaknesses identified. Comprehensive written policies
and procedures are a critical element of a sound internal control structure for properly managing
Vanderbilt’s business functions, including its effort reporting systems and ensuring that those
systems operate effectively and efficiently. This occurred because Vanderbilt’s effort reporting
policy did not include any formal procedures for the required OMB Circular A-21 evaluation.
Thus, there was no guidance which clearly defined the required scope and objectives for
evaluating Vanderbilt’s effort reporting system to ensure its effectiveness and compliance with
Federal standards.

Other Audit Matters:

Vanderbilt Lacks Adequate Segregation of Duties and Access Controls Within the Payroll
Distribution System

        While Vanderbilt has established policy and procedures for its labor effort reporting
system, its internal control activities were not always sufficient to ensure that risks were
minimized in achieving the University’s goals and objectives for efficient and effective
operations and full accountability for labor costs charged to Federal sponsored projects.
Specifically, the audit identified a lack of segregation of duties over the Human Resources and
Payroll functions for the payroll distribution and labor effort reporting system. The current
payroll distribution system allows employees within the Payroll Department to make changes to
payroll data such as salary rate, chargeable cost centers, and associated labor allocations; without
proper independent review and approval. In addition, the risk is increased that inappropriate
changes in such payroll information, most importantly employee salary rates, could go
undetected due to a lack of edit controls and exception reports, which would aid in identifying
improper or erroneous changes.

        In addition, we found a lack of adequate controls over access and security of data
maintained in Vanderbilt’s payroll distribution and labor effort reporting system. Specifically,
the University has not established policy and/or automated controls requiring routine password
changes by Human Resources and Payroll Department personnel to access the system. Given the
sensitive nature of human resource data and the high risk associated with payroll transactions, it
is imperative for Vanderbilt to establish automated controls requiring all employees to
periodically change their security codes to access such electronic information. The lack of
periodic password changes increases the risk that unauthorized entry to the system could occur
and result in sensitive personnel and payroll information being improperly changed and/or
compromised.

Questioned Fringe Benefit Costs Charged

Vanderbilt overcharged a NSF grant $518 for a graduate student’s fringe benefit costs for the
months of February, March, and June of 2006. Upon the University’s subsequent review of the
student’s salary charges, the individual’s status was retroactively changed to exempt the
student’s salary from FICA taxes. While the FICA tax withholding was reimbursed to the
graduate student, the $518 was never appropriately credited to the subject NSF grant. (see
Appendix A)



                                                14
Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

1.1      Work with the Vanderbilt officials to enhance its internal control structure to provide for
         an effective and timely labor certification system that reasonably reflects the actual
         effort/activity employees devote on sponsored projects. At a minimum, Vanderbilt
         should take the following corrective actions:

      a. Institute formal written standards to improve the timeliness for review and approval of
         labor effort reports as follows:

            i.   Establish the maximum number of days after the end of the labor effort reporting
                 period to compile and distribute the labor effort reports to certifying officials for
                 review and approval.

           ii.   Establish the maximum number of days, after labor effort reports are distributed
                 for certifying official review and approval.

          iii.   Establish a clear requirement for certifying officials to date the certification
                 statement on PAF labor certifications.

          iv.    Establish procedures and time frames for reminder notices to follow-up on
                 delinquent labor effort reports using an increasingly graduated scale to higher
                 level management officials.

           v.    Assign specific Vanderbilt senior management officials, such as Department
                 Chairs, accountability for timely PI review and approval of labor effort reports.

             Vanderbilt Response

             In the spring of 2008, Vanderbilt deployed a new Electronic Personnel Action
             Change (ePAC) system, a web-based effort reporting system developed by the
             University. Accordingly, Vanderbilt plans to update its Effort Reporting Policy to
             reflect the changes in the labor effort reporting process brought about by its ePAC
             implementation. The updated Policy will reflect a reasonable time frame for
             distributing and certifying effort reports and prescribe the protocol for follow-up on
             any delinquent effort certifications. As part of this process, central administration
             will work with senior research management officials, Department Chairs, and
             Business Officers to develop and implement accountability measures to enhance the
             effort reporting process on campus and to ensure Vanderbilt's compliance on effort
             reporting. Regarding the dating of certifications, the deployment of ePAC will
             automatically date stamp all certifications in the system when reviewed and approved.




                                                   15
       Auditor’s Comments

       Once fully implemented, Vanderbilt’s proposed corrective actions to formally update
       its Effort Reporting Policy should address the audit recommendations.

b. Develop detailed written procedures and guidance documenting the process for using the
   multi-purpose PAF to both estimate the allocation of salary charges to sponsored projects
   on a prospective basis and to provide for the after-the-fact certification of the
   reasonableness of such salary charges.

       Vanderbilt Response

       With its new ePAC application, Vanderbilt no longer uses the PAF document to
       capture labor effort certifications. Thus, it is not necessary at this time to develop any
       procedures addressing the effort process in relation to the other functions performed
       by the PAF form.

       Auditor’s Comments

       We agree that procedures are no longer required for the PAF document. However,
       Vanderbilt needs to develop clear written instructions for its new web-based ePAC
       system to ensure all users clearly understand their responsibilities for the different
       applications replacing the multi-purpose PAF document.

c. Develop written procedures and guidance defining the typical instructional, research, and
   administrative work responsibilities included in the institutional base salary for various
   types of Vanderbilt employees, and which of those activities do not directly benefit
   Federal Awards and should not be charged to them.

d. Develop written policy defining what percentage difference constitutes a “significant
   change” in work activity that is required to be entered into the payroll distribution system
   on a prospective basis.

e. Develop written policy establishing a quantifiable “precision” or “tolerance” range of
   accuracy to be used for certifying the reasonableness of reported effort on labor
   confirmation reports versus actual effort worked on Federal projects.

       Vanderbilt Response

       As the OIG audit was in process, Vanderbilt's Provost Office issued written guidance
       in July 2007 that defined work responsibilities included in institutional base salary,
       what constituted a significant change in work activity, and what tolerance range of
       accuracy was acceptable for effort report certifications. The University will continue
       to work with the faculty, departments, and schools to ensure their understanding of
       these basic concepts so that sound effort certifications are collected.




                                            16
             Auditor’s Comments

             Vanderbilt actions taken were responsive to the audit recommendations. The
             guidance issued provides clarification on the work activities included in employee
             institutional base salaries and what activities should and should not be charged to
             Federal sponsored projects. Also, a 2.5 percent threshold was established for what
             constitutes a significant change in work activity requiring a change in the payroll
             distribution system and the tolerance range of accuracy for effort report certification.
             However, such important guidance clarifying Vanderbilt’s effort report procedures
             and processes must be formally incorporated into its Effort Reporting Policy as part
             of the University’s planned update, as discussed in recommendation 1.1.a. above.

      f. Define what steps a certifying official should perform to document that he/she had
         “suitable means of verification” to confirm that the work was actually performed and
         require that such documentation be maintained in award files.

             Vanderbilt Response

             Vanderbilt's policy allows for the supervisors to certify in those rare instances that the
             individual is not available and have the requisite knowledge to confirm the work
             performed. With ePAC implementation, the instances of someone other than the
             individual actually certifying their own effort is further decreased due to ePAC being
             a web-based application.

             Auditor’s Comments

             We agree that only in rare instances is Vanderbilt senior-level supervisors required to
             certify labor effort reports when an employee and/or principal investigator is not
             available. However, in those instances, it is important that Vanderbilt have a process
             for documenting that the supervisor did, indeed, have requisite or first-hand
             knowledge to confirm the work performed. We believe that such a process is equally
             important in the new ePAC application; where documentation must be maintained to
             support an override of system controls to allow an alternate individual to certify an
             individual’s labor effort report. Therefore, we re-affirm our audit recommendation.

1.2      Work with Vanderbilt officials to ensure that an adequate labor effort training program is
         established and provided to all officials involved in the effort reporting process. Such
         training should include a thorough discussion of the different aspects and requirements of
         the University’s two different certification processes, specific responsibilities of
         certifying officials, and the various types of employee activities that do not directly
         benefit Federal Awards and should not, therefore, be charged to them.

             Vanderbilt Response

             Since the audit was conducted, Vanderbilt has engaged in numerous faculty and
             departmental administrator meetings around campus and presented sessions on
             compliance with Federal regulations as it relates to effort reporting rules and provided
                                                  17
         details on the specifics of how labor effort is certified. These meetings will continue
         on an ongoing basis to emphasize the importance of the critical process for those
         working on Federal projects. Other training materials are also being developed to
         support the rollout of ePAC and to create several different types of mediums to house
         key information related to effort reporting to ensure that all impacted audiences are
         reached either by face-to-face meetings, web-based training tutorials, campus-wide
         memos, or policy updates and changes

         Auditor’s Comments

         Vanderbilt’s actions are responsive to the audit recommendation. We agree that it is
         essential that appropriate training materials, as well as instruction manuals, be
         developed to support the recent implementation of its new ePAC application so that
         all users clearly understand their labor effort responsibilities.

1.3   Establish formal monitoring policies and procedures and assign clear responsibility to a
      central Vanderbilt oversight office, such as the Office of Contract and Grant
      Administration, to ensure Academic Departments and other cognizant campus offices are
      administering their effort reporting responsibilities to ensure effective and timely
      certification of labor charges to sponsored projects that are fully compliant with
      established University and Federal requirements.

         Vanderbilt Response

         Vanderbilt will continue to develop and fine-tune the monitoring procedures for the
         oversight of effort reporting to reflect the change brought about with the deployment
         of ePAC. Reports are being designed and tested that will provide the central offices
         with tools to allow them oversight of the status of all effort reports generated. These
         reports will also provide the departments and schools the ability to monitor effort
         reports and to work with the central offices to ensure that all faculty and staff paid
         from Federal sources are in compliance with Vanderbilt's effort reporting policy.

         Auditor’s Comments

         Vanderbilt’s proposed corrective actions are generally responsive to the audit
         recommendation and its plans to develop ePAC management reports to oversee the
         timeliness of labor effort reports generated and certified will be an excellent
         monitoring tool. However, given the decentralized organizational structure of the
         University’s labor effort reporting process, it is essential for a central Vanderbilt
         office to be assigned clear oversight responsibility to ensure University-wide
         compliance with its effort reporting policy, thus we reaffirm our audit
         recommendation in this regard.

1.4   Establish a formal written requirement for an independent internal evaluation of the
      payroll distribution and labor effort reporting system to ensure its effectiveness and full
      compliance with Federal, NSF, and University standards. Such a requirement should
      include procedures to ensure a systematic review that will identify reasons for any
      deficiencies and make appropriate recommendations, identify the specific Vanderbilt
                                               18
      office responsible for performing the evaluation, and how often such an evaluation
      should be conducted.

         Vanderbilt Response

         Vanderbilt's Internal Audit department performs assurance services to assist the
         University in meeting its oversight and operating responsibilities. Audit resources are
         generally allocated using a risk-based approach. Annually, Internal Audit selects a
         sampling of departments across campus for review, and part of the departmental
         reviews involve the labor effort process for those individuals paid from Federal
         sources. Vanderbilt will continue to include the payroll distribution and labor effort
         reporting system in the annual risk assessment process performed by Internal Audit.
         The frequency of the audit will be based on criteria reviewed during the process such
         as changes to the effort or payroll systems, changes in regulations, changes in key
         personnel, feedback received from senior management, and the amount of time
         elapsed since the last review.

         Auditor’s Comments

         We agree that it is appropriate for Vanderbilt’s Internal Audit department to perform
         independent evaluations of the effectiveness of the University’s labor effort reporting
         system and to use a risk- based approach in determining the periodic need for such
         reviews. However, Vanderbilt needs to establish a formal written requirement in its
         Effort Reporting Policy for such an evaluation with assigned responsibility to the
         Internal Audit department, as specified in the audit recommendation.

1.5   Establish appropriate internal control procedures to ensure adequate segregation of duties
      and mandatory periodic password changes within the Human Resource and Payroll
      functions.

         Vanderbilt Response

         With the full implementation of the ePAC system, payroll data such as salary rate,
         chargeable cost centers, and associated labor allocations will be electronically entered
         at the department level with electronic approvals as needed to achieve the proper
         controls. This should eliminate the need for the Payroll department making such
         changes. Within the next year, Vanderbilt will implement a new electronic security
         password system which will require periodic password change requirement.

         Auditor’s Comments

         When fully implemented, Vanderbilt’s proposed corrective actions should address the
         audit recommendation.

1.6   Resolve the $31,325 in total questioned salaries costs and associated fringe and indirect
      costs for improper charges for employee activity not directly benefiting NSF grants.
      (see Appendix A)

                                              19
Vanderbilt Response

Vanderbilt management will coordinate with NSF to resolve all questioned costs.
The costs related to the FICA Tax overcharge have already been removed and the
costs refunded to the appropriate NSF entity.

Auditor’s Comments

NSF’s Office of Institution and Award Support should work with Vanderbilt to
resolve the subject questioned costs.




                                   20
Finding 2: Improvements Needed to Properly Report Uncompensated Faculty Labor
Effort on Sponsored Projects

         Federal regulations require a payroll distribution system that will “reasonably reflect the
activity for which individuals are compensated by the institution.” The system must encompass
the time and effort expended by employees on both sponsored projects and all other activities on
an integrated basis. Further, a January 2001 OMB Clarification Memorandum8 provides
additional guidance for cost sharing requirements for faculty effort on sponsored projects.
Specifically, the OMB Memorandum clarifies that faculty effort on organized research includes:
(i) PI salary and wages directly charged to sponsored projects, (ii) PI effort required as
mandatory cost sharing, and (iii) PI effort pledged and quantified as “voluntary committed cost
sharing” in a proposal. Voluntary committed cost sharing is defined as effort not required by the
sponsor, but proposed in the sponsored project narrative and/or budget with no corresponding
funding requested. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxn
xxxxxxxxxxxxxxxxxx9 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

        Consistent with the OMB Clarification Memorandum, our review of the 15 faculty
members, included in our 30 sample employees, found that Vanderbilt’s labor effort reporting
system properly tracked and reported voluntary committed cost shared effort pledged by PIs in
NSF grant proposals. However, the University did not appropriately report committed cost
sharing when NSF funded PI effort on grants was replaced with cost shared effort. Specifically,
two of the 15 faculty members reviewed (13 percent) charged $9,161 less salary to two NSF
grants for funded PI effort than included in the award budget proposals (see Appendix B). Such
“uncharged PI labor effort” represented voluntary committed cost sharing and must be properly
accounted for in Vanderbilt’s labor effort reporting system. The unreported amount of such
committed cost sharing represented about 3 percent of the total FY 2006 salaries of $298,646
charged by the 15 faculty members to NSF grants. Also, one of the two PIs had an additional
NSF grant, with no faculty salary support, where Vanderbilt did not properly estimate or impute
an amount of PI effort to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

        The following example illustrates where Vanderbilt did not properly report committed
cost sharing of PI effort on NSF grants, as required by the OMB Clarification Memorandum:

        •   A PI had four NSF grants active during the summer of 2005. xxx summer labor
            effort report showed one month’s salary charged to each of two NSF awards and the
            third summer month’s salary charged to a University-funded research project. For the
            remaining two NSF awards, the faculty member had one summer month committed in

8
      OMB Memorandum M-01-06, dated January 5, 2001, Clarification of OMB A-21 Treatment of Voluntary
Uncommitted Cost Sharing and Tuition Remission.
9
          Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Paragraph B.1.b.,
Definition of terms, of OMB Circular A-21 states that “Organized research means all research and development
activities of an institution that are separately budgeted and accounted for.”

                                                    21
           the budget proposal, but did not charge any summer salary to this award. The
           uncharged PI effort of one month’s salary or $5,556 should have been reported as
           committed cost sharing. In addition, for the fourth NSF grant, without any direct or
           cost shared PI effort, an imputed amount should have been calculated and included in
           the organized research base.

        Without accurate reporting of committed cost sharing of PI effort, Vanderbilt is unable to
validate to NSF that the two PIs provided the level of effort explicitly committed in the two grant
proposals to accomplish project objectives. NSF expected these faculty members to provide the
amount of effort that the individuals have agreed to contribute in their original grant proposals.
It is important for the Federal Government to be able to validate that a sufficient level of PI effort
was committed to a sponsored project that is commensurate with the complexity and nature of
the research and dollar amount of grant funding. As such, accurate labor effort reports are
essential to document both direct Federally-funded and voluntary committed effort devoted by
faculty members to sponsored projects.

        In addition, the lack of accurate reporting of committed cost sharing of PI effort and the
absence of properly imputing an amount for donated PI effort to sponsored projects, resulted in
NSF potentially assuming a disproportionate share of Vanderbilt’s indirect costs. Specifically,
when such amounts are not accurately quantified and included in the organized research base, the
indirect cost rate charged to Federal grants would be higher because xxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

        Specifically, for the 15 faculty members reviewed, we found that at least $9,161 of
additional faculty voluntary committed cost sharing for two PIs should have been reported and
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Given that (i) the two PIs represented 13
percent of the PIs reviewed and (ii) the $9,161 constituted 3 percent of their total FY 2006 NSF
salary charges, the total potential PI salary xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
research base could be significant for the over 2,800 full-time Vanderbilt faculty members.
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

         These weaknesses occurred because Vanderbilt’s Policy for Cost Sharing on Sponsored
Projects did not provide guidance on how to address situations when Federal funded PI effort on
sponsored grants was replaced with cost shared effort. Specifically, it did not establish
procedures addressing how PI effort should be documented in its labor effort reporting system
when faculty members originally committed a certain amount of effort in their grant proposal
submission, but subsequently decided only to charge partial or no salary directly to the sponsored
projects. However, NSF and other sponsoring agencies have an expectation that the PIs would
fulfill such effort commitments necessary to accomplish the projects’ research objectives. If the
                                                 22
University cannot document that such committed PI effort was actually provided, then Federal
regulations require Vanderbilt to obtain sponsoring agency approval in advance when there is
more than a 25 percent reduction10 in PI time devoted to the grants.

        In addition, Vanderbilt had not performed adequate monitoring and oversight to ensure
that PIs and Co-PIs were complying with the University’s requirement, specified in its cost
sharing policy, that some level of committed faculty effort must be provided to all Federal
sponsored projects; either in the form of a direct salary charge or voluntary committed cost
sharing. As such, Vanderbilt had not established a process to identify Federal awards without
some level of committed faculty effort xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to ensure that Vanderbilt implements the following recommendations:

2.1    Establish formal policy and institutional processes to provide for proper tracking and
       reporting of cost sharing commitments created by replacing funded PI effort on
       sponsored projects with cost shared effort.

       Vanderbilt Response

       Vanderbilt will amend its cost sharing policy to provide for the proper tracking and
       reporting of cost share commitments created by replacing funded PI effort on sponsored
       projects with cost shared effort.

       Auditor’s Comments

       Vanderbilt’s proposed corrective action is responsive and when implemented should fully
       address the audit recommendation.

2.2    Establish formal policy and institutional processes for estimating the amount of faculty
       effort to include in the organized research base for Federally-sponsored projects without
       some level of committed faculty effort. Ensure the methodology for calculating the
       estimated amount is supported by adequate documentation.

       Vanderbilt Response

       Vanderbilt will provide guidance and monitor to ensure faculty include some level of
       effort over the life of any Federally- sponsored research project, either in the form of a
       direct charge to the project or as committed cost sharing. It will also require that PIs
       include a minimum percentage of effort on all Federally-sponsored research proposals.
       This effort will be tracked in accordance with our effort reporting policy.




                                                23
Auditor’s Comments

Vanderbilt’s alternate proposed action to require PIs to include a minimum level of effort
in all Federal research proposals and monitor such effort commitments during the life of
the grant appropriately addresses the intent of the audit recommendation. When such
guidance is issued and properly implemented, such actions should fully address the audit
recommendation.




                                        24
                                                                            Appendix A

                Schedule of FY 2006 Questioned Salaries and Wages

                      Employee Effort Spent on Other Research Activities
    Sample                                         Fringe
    Number        Award Number   Salary Costs     Benefits     Indirect Costs                 Total
      10            XXXXX           $2,833          $590           $1,780                    $5,203
      10            XXXXX           $2,833          $590           $1,780                    $5,203
      28            XXXXX           $5,207           $0            $2,708                    $7,915

                      Subtotal          $10,873           $1,180           $6,268           $18,321

   Employee Effort Spent on Unallowable Administrative or Grant Proposal Writing Activities
    Sample                                         Fringe
    Number      Award Number      Salary Costs    Benefits     Indirect Costs      Total
       2           XXXXX             $1,812         $377          $1,138          $3,327
      29           XXXXX             $2,787         $580          $1,751          $5,117
      30           XXXXX             $2,483         $516          $1,560          $4,559

                      Subtotal           $7,082           $1,473           $4,449           $13,004

                              Employee FICA Tax Overcharged
    Sample                                       Fringe
    Number        Award Number  Salary Costs    Benefits    Indirect Costs                   Total
      9             XXXXX            $0           $518           $269                        $787

TOTAL QUESTIONED                        $17,955           $2,653           $10,717          $31,325
COSTS

Note: Vanderbilt does not assess fringe benefits to graduate student salaries charged to Federal
awards.




                                               25
                                                        Appendix B

   Schedule of Faculty with Uncompensated Effort on NSF
         Grants Not Properly Reported in FY 2006

                    PI Person Months                      NSF
                   Committed in Budget                   Grants
                        Proposal            Uncharged   With No
Sample    NSF                                PI Labor   PI Effort
Number   Award #   Academic        Summer     Effort    Reported

  10     XXXXX        0              1         $5,556

         XXXXX        0              0                      X

  21     XXXXX        0              2         $3,605

                                   TOTAL       $9,161    1 grant




                              26
     Appendix C




27
28
29
30
31
32
33
34
